Page 2 – Mr. Albert Hawkins


Direct Reply to HHS Action Official:

Ms. Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Illinois 60601
rochiora@cms.hhs.gov
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  COLLABORATIVE EFFORT TO 

IDENTIFY OVERLAPPING CLAIMS 

     FOR DUAL-ELIGIBLE 

  BENEFICIARIES RECEIVING 

    MEDICARE PART A AND 

 MEDICAID LONG-TERM-CARE 

     SERVICES IN TEXAS




                    Daniel R. Levinson

                     Inspector General 


                       (June 2009) 

                      A-06-08-00053

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. ' 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. For eligible beneficiaries,
Medicaid pays a per diem to nursing homes for long-term care.

Pursuant to Title XVIII of the Act, the Medicare program provides health insurance for people
age 65 and over and those who are disabled or have permanent kidney disease. Medicare Part A
(hospital insurance) helps cover inpatient care, including hospital stays and up to 100 days in
skilled nursing facilities (SNF) for posthospital extended care. Medicare pays the full cost for
the first 20 days of a qualified SNF stay but requires a coinsurance payment beginning on the
21st day and continuing through the 100th day. Dual-eligible beneficiaries have Medicare
coverage and also are eligible for Medicaid because they have either (1) limited income and
resources or (2) high medical expenses that have caused them to spend down their income to
Medicaid eligibility limits.

The Medicare-Medicaid Data Match Program (the program) is a collaborative effort initiated by
the Centers for Medicare & Medicaid Services (CMS) its key partners are State Medicaid
agencies and program safeguard contractors (TriCenturion in Texas). Program contractors
analyze Medicare and Medicaid claims data simultaneously to detect patterns of fraud, waste,
and abuse that may not be evident when viewed separately. The Texas Health and Human
Services Commission (the State agency), which administers Medicaid for the State of Texas,
used TriCenturion to identify improper Medicaid payments the State agency made for Medicare
coinsurance. However, TriCenturion did not match Medicaid claims for long-term care to
Medicare claims for inpatient stays to detect overlapping payments. To assist the State agency,
we collaborated with the program partners to expand the program data match TriCenturion
performed to identify overlapping payments.

OBJECTIVE

Our objective was to determine whether the State agency paid Medicaid long-term-care
providers for the same dates of service for which Medicare paid hospitals and SNFs for dual-
eligible beneficiary inpatient stays.

SUMMARY OF FINDINGS

The State agency paid Medicaid long-term-care providers for the same dates of service for which
Medicare paid hospitals and SNFs for dual-eligible beneficiary inpatient stays. From records
provided by TriCenturion for calendar year 2006, we identified 2,480 Medicaid long-term-care
claims with the same dates of service as Medicare inpatient claims. The State agency researched
the claims and recovered $417,060 ($253,098 Federal share) in payments for 1,198 of the
Medicaid long-term-care claims. For the remaining 1,282 Medicaid long-term-care claims, the
State agency determined that the payments were proper. The State agency had not identified


                                                i
overlapping payments because the program partners did not coordinate a match of Medicaid
claims for long-term care to Medicare claims for inpatient stays for the same beneficiary and the
same dates of service. In addition, the State agency noted that it could improve its efforts to
recover improper payments if the program contractor provided the data match information in a
more timely manner.

RECOMMENDATIONS

We recommend that the State agency:

    •	 refund the $253,098 Federal share of improper Medicaid long-term-care payments to the
       Federal Government;

    •	 continue to obtain from the program contractor periodic listings of Medicare and
       Medicaid claims with the same dates of service, research the claims, recover
       inappropriate claim payments having overlapping dates of service, and refund the
       Federal share of recovered amounts to the Federal Government; and

    •	 work with CMS and the program contractor to continue to improve the data match
       process through its use of the data fields and encourage the program contractor to
       provide the data match results in a more timely manner.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally agreed with our
recommendations and discussed the actions it would take. The State agency said that the number
of Medicaid and Medicare claims with overlapping dates of service may change because the
State agency has not completed its reconciliation of the claims. In addition, the State agency
disagreed with our finding that the State agency did not identify overlapping payments because it
did not request that TriCenturion attempt to do so. The full text of the State agency’s comments
is included as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

We made minor revisions to the report in response to the State agency’s comments. We agree
that the number of claims with overlapping dates of service may change because the State
agency’s list of recovered amounts did not always match the service dates of Medicaid claims
from TriCenturion’s claims data. We reported the amounts of recovered payments provided by
the State agency and the number of Medicaid claims from TriCenturion’s list of overlapping
claims.




                                                ii
                                                   TABLE OF CONTENTS 


                                                                                                                                 Page


INTRODUCTION................................................................................................................. 1 


     BACKGROUND .............................................................................................................. 1 

       Medicaid and Medicare Eligibility ............................................................................. 1 

       Medicare-Medicaid Data Match Program .................................................................. 1 

       Postpayment Reviews of Medicaid Claims ............................................................... 1 

       Collaborative Effort ................................................................................................... 2 


     OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................ 2 

       Objective ..................................................................................................................... 2

       Scope........................................................................................................................... 2 

       Methodology ............................................................................................................... 3        


FINDINGS AND RECOMMENDATIONS ....................................................................... 3 


          MEDICARE AND MEDICAID CLAIMS FOR THE SAME

           DATES OF SERVICE ............................................................................................. 3 


          CONTINUATION OF THE COLLABORATION .................................................... 4                                          


RECOMMENDATIONS...................................................................................................... 4 


          STATE AGENCY COMMENTS……………………………………………………4                                                                                        


          OFFICE OF INSPECTOR GENERAL RESPONSE………………………………..5 


APPENDIX

          STATE AGENCY COMMENTS




                                                                     iii
                                       INTRODUCTION 


BACKGROUND

Medicaid and Medicare Eligibility

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. For eligible beneficiaries, Medicaid pays a per
diem to nursing homes for long-term care.

Pursuant to Title XVIII of the Act, the Medicare program provides health insurance for people
age 65 and over and those who are disabled or have permanent kidney disease. Medicare Part A
(hospital insurance) helps cover inpatient care, including up to 100 days in skilled nursing
facilities (SNF) for posthospital extended care. An SNF is an institution or a distinct part of an
institution, such as a skilled nursing home or rehabilitation center, which primarily provides
skilled nursing care and related services for patients who require medical or nursing care.
Medicare pays the full cost for the first 20 days of a qualified SNF stay but requires a
coinsurance payment beginning on the 21st day and continuing through the 100th day.

Dual-eligible beneficiaries are individuals who have Medicare coverage and who also are
eligible for Medicaid because they have either (1) limited income and resources or (2) high
medical expenses that have caused them to spend down their income to Medicaid eligibility
limits.

Medicare-Medicaid Data Match Program

The Medicare-Medicaid Data Match program (the program) is a collaborative effort initiated by
CMS. Program contractors analyze Medicare and Medicaid claims data simultaneously to detect
patterns of fraud, waste, and abuse that may not be evident when viewed separately. The
program allows CMS to identify vulnerabilities in Medicare and Medicaid and work with the
States, where appropriate, to take action to protect the Federal share of Medicaid expenditures.
The program began as a pilot project in California in 2001 and by 2005 had expanded to nine
additional States, including Texas, which began its program in 2003. The Deficit Reduction Act
of 2005 amended the Act to require CMS to establish the program nationwide.

Postpayment Reviews of Medicaid Claims

The Texas Health and Human Services Commission (the State agency) administers Medicaid for
the State of Texas. Under the program, the State agency coordinated with CMS and
TriCenturion, the program safeguard contractor for Texas, to identify instances in which the
State Medicaid agency made improper coinsurance payments for SNF stays of dual-eligible



                                                1

beneficiaries. TriCenturion performed a computer match of Medicare and Medicaid claims and
provided the State agency with a quarterly report of claims that appeared to be improper. The
State agency used the report to research, and recover from SNF providers, those coinsurance
payments verified as improper. During a previous audit of these types of claims, “Review of
Texas Medicaid Payments for Medicare Coinsurance of Dual-Eligible Beneficiaries in Skilled
Nursing Facilities” (A-06-08-00006), we identified improper coinsurance payments of $119,580
($72,668 Federal share) that the State agency had not recovered. 1 Although the State agency
used TriCenturion to identify improper coinsurance payments, the State agency informed us that
TriCenturion did not perform a data match to identify Medicaid claims with per diem payments
to nursing homes for long-term care that had the same dates of service as Medicare inpatient
claims.

Collaborative Effort

To assist the State agency, we initiated a collaborative effort among the Office of Inspector
General (OIG), the State agency, CMS, and TriCenturion. Through this effort, we expanded the
program to allow TriCenturion to identify instances in which the same beneficiaries had the same
dates of service on Medicare inpatient claims and Medicaid long-term-care claims.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency paid Medicaid long-term-care
providers for the same dates of service for which Medicare paid hospitals and SNFs for dual-
eligible beneficiary inpatient stays.

Scope

Using a list of 242,083 records provided by TriCenturion for calendar year 2006, we identified
2,480 long-term-care Medicaid claims that had the same dates of service as Medicare inpatient
claims for the same beneficiaries. We excluded claims with overlaps of one day if the last day of
Medicare service was the first day of Medicaid service. 2 We did not review the claims in detail,
but provided the claims to the State agency for potential recoupment.

We limited our review of internal controls to obtaining an understanding of the State agency’s
policies and procedures for identifying and recovering potential overpayments to long-term-care
facilities for dual-eligible beneficiaries.

We conducted our fieldwork at the State agency in Austin, Texas, from April through November
2008.

1
    State agency Medicare coinsurance payments are improper when they are not authorized by a Medicare claim.
2
 When the final day of a Medicare claim was a discharge day, Medicare covered incidental costs but not room and
board. In these instances, the first day of service on the Medicaid claim was for an admission, and the overlap was
proper.


                                                          2

Methodology

To accomplish our objective, we:

       •	 reviewed applicable Federal and State requirements;

       •	 held discussions with State officials to ascertain State policies and procedures for
          identifying and recovering improper Medicaid long-term-care payments;

       •	 initiated a collaborative effort among OIG, CMS, the State agency, and TriCenturion;

       •	 held group discussions with the collaboration participants to clarify the purpose of the
          collaboration, define the roles of each participant, determine timelines for obtaining
          results, and identify the scope and fields of Medicare and Medicaid claims to include
          in TriCenturion’s data match;

       •	 obtained from TriCenturion Medicare and Medicaid claims with the same dates of
          service and provided them to the State agency; and

       •	 obtained and reviewed a list of payments recovered by the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

MEDICARE AND MEDICAID CLAIMS FOR THE SAME DATES OF SERVICE

To ensure proper and efficient payment of Medicaid claims, section 1902(37)(B) of the Act
requires States to have claim payment procedures that provide for prepayment and postpayment
claims review, including review of appropriate data about providers, patients, and the nature of
the services for which payments are claimed.

The State agency paid Medicaid long-term-care providers for the same dates of service for which
Medicare paid hospitals and SNFs for dual-eligible beneficiary inpatient stays. For calendar year
2006, we identified 2,480 long-term-care Medicaid claims with the same dates of service as
Medicare inpatient claims. The State agency researched the claims and recovered $417,060
($253,098 Federal share) in payments for 1,198 of the Medicaid long-term-care claims. For the
remaining 1,282 Medicaid long-term-care claims, the State determined that the payments were
proper. The State agency had not identified overlapping payments because the program partners
did not coordinate a match of Medicaid claims for long-term care to Medicare claims for
inpatient stays for the same beneficiary and the same dates of service.


                                                3

CONTINUATION OF THE COLLABORATION

The collaboration that was initiated established a process that, if continued, will improve the
accuracy of Medicaid payments. However, we learned that opportunities exist to improve the
process. During the collaboration, the State agency noted that TriCenturion did not collect two
Medicare claim data fields, “days covered” and “days not covered,” that would have enabled the
State agency to determine whether it had paid for Medicaid long-term-care claims with the same
dates of service and beneficiaries as Medicare inpatient claims. As a result, we requested that
CMS add collection of the two data fields in the latest program contract for Texas. 3 Collecting
this data in the future should allow the State agency to identify and recover Medicaid payments
with the same dates of service as Medicare claims. The State agency also noted that more timely
receipt of the results of the data match from the program contractor would improve the effort to
recover improper payments because (1) when providers need to research a claim, current data is
more accessible because, for example, records may be sent to offsite locations after a certain
period, and (2) recovering funds from providers with closed contracts is more difficult.

RECOMMENDATIONS

We recommend that the State agency:

     •	 refund the $253,098 Federal share of improper Medicaid long-term-care payments to the
        Federal Government;

     •	 continue to obtain from the program contractor periodic listings of Medicare and
        Medicaid claims with the same dates of service, research the claims, recover
        inappropriate claim payments having overlapping dates of service, and refund the
        Federal share of recovered amounts to the Federal Government; and

     •	 work with CMS and the program contractor to continue to improve the data match
        process through its use of the data fields and encourage the program contractor to
        provide the data match results in a more timely manner.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency generally agreed with our
recommendations and discussed the actions it would take. The State agency said that the number
of Medicaid and Medicare claims with overlapping dates of service may change because the
State agency has not completed its reconciliation of the claims. In addition, the State agency
disagreed with our finding that the State agency did not identify overlapping payments because it
did not request TriCenturion to attempt to do so. The State agency said that it was not
responsible or in a position to direct TriCenturion’s actions. The full text of the State agency’s
comments is included as the Appendix.


3
 CMS extended TriCenturion’s contract for program services, which was set to expire in September 2008, through
January 2009. CMS established zone program integrity contractors to replace program safeguard contactors and in
February 2009 awarded the contract for zone 4, which includes Texas, to Health Integrity, LLC.


                                                       4

OFFICE OF INSPECTOR GENERAL RESPONSE

We made minor revisions to the report in response to the State agency’s comments. We agree
that the number of claims with overlapping dates of service may change because the State
agency’s list of recovered amounts did not always match the service dates of Medicaid claims
from TriCenturion’s claims data. We reported the amounts of recovered payments provided by
the State agency and the number of Medicaid claims from TriCenturion’s list of overlapping
claims.




                                              5

APPENDIX

Appendix 

Page 1 of 3

Appendix 

Page 2 of 3

Appendix 

Page 3 of 3

